No._____________

In The
Supreme Court of the United States
TONY CHEVALLIER,

Petitioner,

v.

UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached Petition for Writ of Certiorari
without prepayment of costs and to proceed in forma pauperis.
Petitioner has previously been granted leave to proceed in forma pauperis and
was represented by appointed counsel in the United States Court of Appeals for the
Fourth Circuit.
The appointment was made under the following provision of law: Criminal
Justice Act of 1964, 18 U.S.C ยง 3006A.
Respectfully submitted this 16th day December 2020.

Frank A. Abrams
Counsel of Record
LAW OFFICE OF
FRANK ABRAMS, PLLC
12 Forest Ridge Court
Arden, NC 28704
(828) 651-8966
frankabramslaw@gmail.com
Counsel for Petitioner

